         AUDIT REPORT


Audit of NRC’s Oversight of Master Materials Licensees


              OIG-11-A-14       June 22, 2011




   All publicly available OIG reports are accessible through
                       NRC’s Web site at:
   http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                      June 22, 2011


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF MASTER MATERIALS
                            LICENSEES (OIG-11-A-14)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of Master Materials Licensees.

The report presents the results of the subject audit. Agency comments provided during
a May 2, 2011, exit conference and an additional meeting with staff from the Office of
the General Counsel on May 5, 2011, have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials & Waste Safety Audit Team,
at 415-5914.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Hubert T. Bell, Inspector General
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
Marc L. Dapas, Acting Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                Audit of NRC’s Oversight of Master Materials Licensees


EXECUTIVE SUMMARY

   BACKGROUND

        The Nuclear Regulatory Commission’s (NRC) mission is to regulate the
        Nation’s civilian use of byproduct, source, and special nuclear materials to
        ensure adequate protection of public health and safety, promote the
        common defense and security, and protect the environment. NRC
        regulates medical, industrial, and academic uses of nuclear materials
        through a combination of regulatory requirements, including licensing,
        inspection, and enforcement. NRC also issues Master Materials Licenses
        (MMLs) to Federal agencies.

        An MML is a materials license issued to a Federal agency authorizing use
        of material at multiple sites that fall under the jurisdiction of the Federal
        agency. The MML allows the Federal agency to conduct some activities
        as a regulator, such as issuing permits for radioactive materials use at the
        sites that use materials (referred to as permittees), conducting
        inspections, handling allegations, following up on incidents and events,
        and taking enforcement actions. NRC, in turn, provides oversight of MML
        licensees and permittees through various means.

        MMLs incorporate by reference a Letter of Understanding (LOU) that
        defines the licensee’s responsibilities for the radiation control program and
        NRC’s role supporting the MML licensee. The MMLs also incorporate by
        reference ―tie downs,‖ which are documents such as MML licensee
        procedures for permitting and inspections that become license conditions
        and are considered part of the license.

        As of April 2011, NRC had issued MMLs to three Federal agencies: the
        Department of the Air Force, the Department of the Navy, and the
        Department of Veterans Affairs. For each MML, the responsible Federal
        agency has established a master radiation safety committee and an MML
        licensee staff organization that reports to the committee. The licensee
        staff organizations conduct the day-to-day management of the MML
        licensee’s program. The three MML licensee organizations vary based on
        the numbers and types of permits.




                                       i
                             Audit of NRC’s Oversight of Master Materials Licensees



      Each MML licensee has a corresponding project manager in an NRC
      region assigned to monitor the MML licensee’s activities. NRC oversight
      of MML licensees is coordinated by the project managers and is
      conducted through biennial reviews of the MML licensee program,
      independent inspections of the MML permittees, accompaniments of MML
      licensee inspections of the permittees, enforcement, and allegations
      followup.

PURPOSE

      The audit objective was to determine whether NRC’s oversight of MML
      licensees adequately protects public health and safety and the
      environment.

RESULTS IN BRIEF

      Over the past decade, NRC has made some improvements to its oversight
      of MML licensees to facilitate adequate protection of public health and
      safety and the environment; however, opportunities exist for NRC to
      further strengthen its oversight of this unique type of materials licensee.
      NRC has developed guidance to oversee MML licensees, and the agency
      has taken steps to improve its implementation of its guidance.

      NRC management could strengthen MML licensee oversight by:

            Improving the guidance for NRC staff providing technical
            assistance and training to MML licensees.
            Improving the guidance for the selection of MML permittees for
            NRC independent inspection.
            Clarifying MML licensee regulatory oversight roles, responsibilities,
            and accountabilities.

      NRC Could Improve Guidance for NRC Staff Providing Technical
      Assistance and Training to MML Licensees

      MML licensees have difficulty obtaining support they need to successfully
      implement their programs. The LOUs state that NRC will provide
      guidance and assistance in areas pertinent to the administration of the



                                    ii
                       Audit of NRC’s Oversight of Master Materials Licensees


MML license, including technical assistance and training where NRC has
special capabilities. NRC management has not provided adequate
guidance or a consistent process for supporting MML licensee staff.
Without this support, MML licensee staff may lack the knowledge and
skills necessary to effectively implement their oversight programs and,
consequently, they might not adequately protect public health and safety
and the environment.

Guidance on Selection of MML Permittees for Inspection Could Be
Improved

NRC selection of MML permittees for independent inspection varies. NRC
monitors MML licensees’ performance primarily through independent
inspections of MML permittees, and NRC principles regarding regulatory
transparency and predictability should guide these monitoring actions.
Regional variation in selecting MML permittees for inspection is a result of
unclear and vague guidance. Without a clear definition of inspection
parameters, MML permittee inspections are at risk of becoming a lower
priority than deadline-driven activities, which could impair the
effectiveness of monitoring MML licensee and permittee performance.

NRC Should Clarify MML Licensee Regulatory Oversight Roles,
Responsibilities, and Accountabilities

NRC’s regulatory oversight expectations for MML licensees are not
enforced. To ensure adequate protection of public health and safety and
the environment, NRC expects MML licensees to perform regulatory
oversight functions. However, these expectations are not clearly defined
or explicitly enumerated in NRC regulations, the MMLs, the LOUs, or
licensee ―tie downs.‖ As a result, MML licensees and NRC may have
different understandings of MML licensee staff and the master radiation
safety committee accountabilities and regulatory oversight roles and
responsibilities. Consequently, MML licensees may not fully perform
these regulatory oversight functions in a manner NRC expects, which
could result in inadequate protection of public health, safety, and the
environment.




                              iii
                            Audit of NRC’s Oversight of Master Materials Licensees



RECOMMENDATIONS

     This report makes five recommendations to help NRC improve its
     oversight of MML licensees. A consolidated list of these
     recommendations appears in Section IV of this report.

AGENCY COMMENTS

     Agency comments provided during a May 2, 2011, exit conference and an
     additional meeting with staff from the Office of the General Counsel on
     May 5, 2011, have been incorporated, as appropriate, into this report. The
     agency declined to provide formal comments.




                                  iv
                         Audit of NRC’s Oversight of Master Materials Licensees



ABBREVIATIONS AND ACRONYMS

       ADAMS   Agencywide Documents Access and Management System
       CFR     Code of Federal Regulations
       DNMS    Division of Nuclear Materials Safety
       FSME    Office of Federal and State Materials and Environmental
               Management Programs
       FTE     full-time equivalent
       IMC     Inspection Manual Chapter
       IP      Inspection Procedure
       LOU     Letter of Understanding
       MML     Master Materials License
       NRC     Nuclear Regulatory Commission
       OIG     Office of the Inspector General
       TAR     technical assistance request
       TTC     Technical Training Center




                                v
                                         Audit of NRC’s Oversight of Master Materials Licensees




TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i
        ABBREVIATIONS AND ACRONYMS ......................................... v
        I.        BACKGROUND ............................................................... 1
        II.       PURPOSE ...................................................................... 7
        III.      FINDINGS ........................................................................ 7

                  A. NRC COULD IMPROVE GUIDANCE FOR NRC
                     STAFF PROVIDING TECHNICAL ASSISTANCE AND
                     TRAINING TO MML LICENSEES ...................................... 8

                  B. GUIDANCE ON SELECTION OF MML PERMITTEES
                     FOR INSPECTION COULD BE IMPROVED ........................ 14


                  C. NRC SHOULD CLARIFY MML LICENSEE REGULATORY
                     OVERSIGHT ROLES, RESPONSIBILITIES, AND
                     ACCOUNTABILITIES ...................................................... 20

         IV.      CONSOLIDATED LIST OF RECOMMENDATIONS ...... 26

             V.   AGENCY COMMENTS .................................................. 27


        APPENDIX

        SCOPE AND METHODOLOGY ............................................... 28




                                                  vi
                                             Audit of NRC’s Oversight of Master Materials Licensees


I.      BACKGROUND

                The Nuclear Regulatory Commission’s (NRC) mission is to regulate the
                Nation’s civilian use of byproduct, source, and special nuclear materials1
                to ensure adequate protection of public health and safety, promote the
                common defense and security, and protect the environment. NRC
                regulates medical, industrial, and academic uses of nuclear materials
                through a combination of regulatory requirements, including licensing,
                inspection, and enforcement. NRC also issues Master Materials Licenses
                (MMLs) to Federal agencies.

                What is a Master Materials License?

                An MML is a material (byproduct, source, and/or special nuclear material)
                license issued to a Federal agency authorizing use of material at multiple
                sites that fall under the jurisdiction of the Federal agency. The MML
                allows the Federal agency to conduct some activities as a regulator, such
                as issuing permits for radioactive materials use at the sites that use
                materials (referred to as permittees), conducting inspections, handling
                allegations, following up on incidents and events, and taking enforcement
                actions. NRC, in turn, provides oversight of MML licensees primarily
                through biennial reviews and permittees through independent inspections
                conducted by NRC staff. According to NRC managers, the issuance of
                MMLs saves NRC resources. For example, MMLs save NRC from having
                to monitor about 500 individual specific materials licenses. Also, MML
                licensee staff are closer to the users of the materials and can respond
                more quickly than NRC. MML licensees each pay an annual fee of
                $234,000 to NRC.

                MMLs incorporate by reference a Letter of Understanding (LOU) that
                defines the licensee’s responsibilities for the radiation control program.
                The MMLs also incorporate by reference ―tie downs,‖ which are
                documents such as MML licensee procedures for permitting and
                inspections that become license conditions and are considered part of the


1
  Special nuclear material consists of uranium-233 or uranium-235, enriched uranium, or plutonium.
Source material is natural uranium or thorium or depleted uranium that is not suitable for use as reactor
fuel. Byproduct material includes, but is not limited to, nuclear material (other than special nuclear
material) that is produced or made radioactive in a nuclear reactor, discrete sources of radium-226, and
accelerator produced radioactive material that is produced, extracted, or converted after extraction for a
commercial, medical, or research activity.

                                                     1
                                              Audit of NRC’s Oversight of Master Materials Licensees


                 license. The LOUs lay out areas of separate and shared responsibility
                 between NRC and the licensee. For example, the MML licensee assumes
                 responsibility for issuing permits for the use of nuclear materials and
                 inspects those permittees. NRC reviews the permitting actions of the
                 licensee, accompanies licensee inspections of a few permittees each
                 year, and independently inspects the permittees. Enforcement is another
                 area of divided responsibility. The MML licensee identifies violations at
                 permittee facilities and must report escalated enforcement to NRC.2 NRC
                 reviews MML licensee escalated enforcement actions to determine
                 whether the MML licensee made the correct determination as to the
                 violation’s severity level. For escalated enforcement, NRC retains sole
                 authority to issue civil penalties.

                 Three Current MMLs

                 As of April 2011, NRC had issued MMLs to three Federal agencies: the
                 Department of the Air Force (Air Force), the Department of the Navy
                 (Navy), and the Department of Veterans Affairs (Veterans Affairs). For
                 each MML, the responsible Federal agency has established a master
                 radiation safety committee and an MML licensee staff organization that
                 reports to the committee. The licensee staff organizations conduct the
                 day-to-day management of the MML licensee’s program. The MML
                 licensee staff organization issues the permits for nuclear materials use,
                 conducts the inspections of the permittees, and decommissions sites no
                 longer needed for nuclear materials use. Each master radiation safety
                 committee holds its own quarterly meetings to discuss issues related to
                 their respective MML licensee staff organization’s activities and the
                 performance of the MML permittees. The current MML licensees and
                 features of their oversight programs are outlined in Table 1.




2
 Under NRC’s Enforcement Policy there are three primary enforcement sanctions: orders, civil penalties,
and violations. A violation formalizes how a regulatory requirement was violated and normally requires a
written response. Violations are assigned a severity level, ranging from Severity Level IV, for those of
more than minor concern, to Severity Level I for the most significant. Severity Level I, II, and III violations
are considered to be ―escalated enforcement actions.‖

                                                       2
                                            Audit of NRC’s Oversight of Master Materials Licensees




 Table 1: MML Licensees as of March 2011

Federal       Date of                      Master Radiation
                             Number of                          MML Licensee Staff     MML Permitted
Agency        MML                          Safety
                             Permits                            Organization(s)        Uses
Licensee      Issuance                     Committee

                                                                                       Chemical agent
                                                                                       monitors and
                                                                Radioisotope           detectors, nuclear
Air Force     June 1985      269           Radioisotope         Committee              medicine, waste
                                           Committee            Secretariat            disposal,
                                                                                       decommissioning,
                                                                                       among others
                                                                                       Radiography,
                                                                Radiological Affairs
                                                                                       nuclear medicine,
                                                                Support Office, and
                                           Naval Radiation                             research and
Navy          March 1987     79                                 Naval and Marine
                                           Safety Committee                            development,
                                                                Corps Public Health
                                                                                       decommissioning,
                                                                Center
                                                                                       among others
                                                                                       Primarily nuclear
Veterans                                   National Radiation   National Health        medicine, also
              March 2003     116
Affairs                                    Safety Committee     Physics Program        research and
                                                                                       development

 Source: OIG analysis of NRC and licensee documents.




                The three MML licensee organizations vary based on the numbers and
                types of permits. The Air Force has 269 permits, but more than half are
                for chemical agent detectors and portable gauges, which are normally
                considered low risk. Air Force permits also cover some research and
                development and medical activities. Although the Navy and Veterans
                Affairs have more comparable numbers of permits, the activities the
                permits cover differ. The Navy has 15 medical permits and the balance is
                for various industrial uses. The Navy also has a large number of existing
                and potential decommissioning sites for which permits will have to be
                issued. Additionally, the Navy maintains thousands of chemical agent
                detectors and monitors, but those are not tracked as individual permits.
                The permits issued under the Veterans Affairs MML are primarily for
                medical uses, but there are also some permits for research activities.




                                                   3
                                    Audit of NRC’s Oversight of Master Materials Licensees


           Structure for MML Oversight

           NRC oversight of MML licensees is outlined in NRC Inspection Manual
           Chapter (IMC) 2810, ―Master Material License Inspection Program.‖ Each
           MML licensee has a corresponding project manager in an NRC region.
           The project managers are the primary points-of-contact between the MML
           licensees and NRC. The project managers are located in branches within
           the Divisions of Nuclear Materials Safety (DNMS) in each region. Working
           with their responsible branch chief, the project managers coordinate NRC
           oversight of the MML licensee that their region is assigned to monitor.
           Table 2 shows the NRC regions and branches responsible for oversight of
           the MML licensees.


Table 2: NRC Regions, Divisions, and Branches Responsible for MML Oversight


               Responsible NRC Region,
                                                         Federal Agency Licensee
                 Division, and Branch

                  Region IV, DNMS,
                                                                 Air Force
           Nuclear Materials Safety Branch B

                  Region I, DNMS,
                                                                   Navy
               Decommissioning Branch

                   Region III, DNMS,
                                                              Veterans Affairs
               Materials Licensing Branch

    Source: OIG interviews with NRC staff.


           Additionally, there is an MML project manager at headquarters, in the
           Division of Materials Safety and State Agreements, Office of Federal and
           State Materials and Environment Management Programs (FSME). The
           headquarters project manager’s activities include communicating with all
           the regional project managers on a regular basis and distributing
           information to the MML licensees. NRC has allocated 1.5 full-time
           equivalents (FTE) for fiscal year 2011 for routine oversight of MML
           licensees as follows: FSME - 0.2 FTE, Region I - 0.4 FTE, Region III - 0.5
           FTE, and Region IV - 0.4 FTE. Figure 1 shows the general oversight
           relationship of NRC regions to the internal structure of the MML
           organizations.


                                             4
                                         Audit of NRC’s Oversight of Master Materials Licensees



Figure 1: Generic NRC Oversight of MML Licensees



           NRC Region




                                         Federal Agency Licensee




                                                                          Master
                                                                         Radiation
                                                                          Safety
                                                                         Committee
              MML Licensee
             Staff Organization



                                                                    Hospital permittee


            Broad-scope medical
                 permittee
                                                                   MML permittees

                                  Research and
                                  development    Decommissioning
            Industrial              permittee     site permittee
          radiography                                                 Waste disposal
           permittee                                                  site permittee




Source: OIG analysis of NRC and licensee documents and OIG interviews with NRC and licensee
staff.




                                                 5
                      Audit of NRC’s Oversight of Master Materials Licensees


NRC oversight of MML licensees is conducted through biennial reviews,
independent inspections, accompaniment inspections, enforcement, and
allegations followup.

      Biennial reviews: Comprehensive NRC team reviews that focus on
      licensee and permittee compliance with NRC requirements and
      specific focus elements associated with the MML licensee’s
      management oversight, staffing, training, permitting, inspection,
      and response to events or allegations.

      Independent inspections: NRC inspections of MML licensees’
      permittees, including both routine and any reactive inspections
      performed in response to incidents, events, or allegations.
      Violations identified by NRC during these independent inspections
      are issued in accordance with NRC’s Enforcement Policy.

      Accompaniment inspections: NRC’s observation of an MML
      licensee inspector conducting an inspection of a permittee to
      evaluate the performance of the MML inspector and the
      implementation of the MML licensee’s inspection program.

      Enforcement: If an MML licensee identifies a violation at a
      permittee location that leads to escalated enforcement, the region
      responsible for that MML will evaluate the MML licensee’s
      enforcement in accordance with NRC’s Enforcement Policy and
      issue violations and levy civil penalties as appropriate.

      Allegations followup: All allegations concerning the MML licensee
      brought to the attention of the regional NRC project manager and
      the regional allegations coordinator are processed according to
      NRC Management Directive 8.8, Management of Allegations. The
      regional allegations review board may refer the allegation back to
      the MML licensee or recommend independent followup by NRC.




                             6
                                             Audit of NRC’s Oversight of Master Materials Licensees




II.     PURPOSE

                The audit objective was to determine whether NRC’s oversight of MML
                licensees adequately protects public health and safety and the
                environment.3 The report appendix contains information on the audit
                scope and methodology.

III.    FINDINGS

                Over the past decade, NRC has made some improvements to its oversight
                of MML licensees to facilitate adequate protection of public health and
                safety and the environment; however, opportunities exist for NRC to
                further strengthen its oversight of this unique type of materials licensee.
                NRC has developed guidance to oversee MML licensees, and the agency
                has taken steps to improve its implementation of its guidance. For
                example, NRC — in response to issues associated with the Veterans
                Affairs MML licensee — established a lessons-learned task group to
                review NRC licensing and inspection policies, procedures, and practices
                related to prostate implant brachytherapy and NRC’s oversight of the
                MML. NRC is taking actions to implement recommendations from the task
                group’s final report. The agency has established counterpart meetings
                and working groups to better communicate with MML licensee staff. NRC
                has started to offer training in enforcement and allegations for MML
                licensee staff. Finally, NRC is revising its guidance for MML oversight,
                such as NUREG 1556, Volume 10, ―Program-Specific Guidance About
                Master Materials Licenses.‖

                NRC management could strengthen MML licensee oversight by:

                             Improving the guidance for NRC staff providing technical
                             assistance and training to MML licensees.
                             Improving the guidance for the selection of MML permittees for
                             NRC independent inspection.
                             Clarifying MML licensee regulatory oversight roles,
                             responsibilities, and accountabilities.

3
  The original objective of this audit, as noted in OIG’s fiscal year 2011 Annual Plan, was to determine the
extent to which NRC is providing effective oversight of MMLs. The objective was revised during fieldwork
to tie the audit objective to NRC’s mission of protection of public health and safety and the environment.

                                                     7
                            Audit of NRC’s Oversight of Master Materials Licensees


A.   NRC Could Improve Guidance for NRC Staff Providing Technical
     Assistance and Training to MML Licensees

     MML licensees have difficulty obtaining support they need to successfully
     implement their programs. The LOUs state that NRC will provide
     guidance and assistance in areas pertinent to the administration of the
     MML license, including technical assistance and training where NRC has
     special capabilities. NRC management has not provided adequate
     guidance or a consistent process for supporting MML licensee staff.
     Without this support, MML licensee staff may lack the knowledge and
     skills necessary to effectively implement their oversight programs and,
     consequently, they might not adequately protect public health and safety
     and the environment.

     NRC Obligations To Support Licensee Execution of MML

     An LOU between NRC and an MML licensee is incorporated by reference
     in the MML and enumerates assurances and obligations of both NRC and
     the licensee. These letters also describe activities that NRC will
     undertake to assist the MML licensee in fully executing its regulatory
     responsibilities under the license to adequately protect public health and
     safety and the environment. Two important NRC obligations to MML
     licensees are (1) support the licensee by providing guidance and technical
     assistance and (2) make training available to licensee staff. Specifically,
     the LOU incorporated by reference in the Navy’s MML states the following
     in regard to NRC support:

           The NRC will provide guidance and assistance in areas
           pertinent to the administration of this license, to include
           technical assistance in those matters where the NRC has
           special capabilities and technical ability, or where the NRC
           determines that such assistance is in the best interests of its
           regulatory program or responsibility.

     The Navy LOU also states the following in regard to NRC providing
     training to MML licensees:

           The NRC and USN [Navy] will mutually arrange for Navy
           inspectors to attend appropriate NRC training courses….



                                   8
                                              Audit of NRC’s Oversight of Master Materials Licensees



                         The Air Force and Veterans Affairs LOUs are similar to
                         the Navy’s LOU.

                NRC’s Current Approach to MML Licensee Support Could Be
                Improved

                MML licensees have difficulty obtaining the support they need to
                successfully implement their programs in accordance with their licenses.
                MML licensees often do not receive timely or clear responses to their
                requests for technical assistance. Additionally, the MML licensees have
                difficulty getting into NRC-sponsored training courses.

                MML Licensees Do Not Receive All the Support They Need From NRC

                MML licensee staff rely on NRC staff to provide information on enforcing
                NRC regulations and for ensuring permittee compliance with regulations,
                but NRC staff do not always provide timely or clear answers. MML
                licensee requests pertain to topics such as increased controls4
                requirements, decommissioning,5 and the applicability of medical event6
                reporting to prostate implant brachytherapy. Staff from all three MML
                licensees stated that NRC does not always respond to requests for
                guidance and technical assistance, and when NRC does respond, the
                response is not always timely or clear. Although the NRC MML regional
                project managers provide support by answering phone calls or e-mails,
                responding to questions at meetings, and while accompanying or
                conducting inspections of permittees, some requests for technical



4
   NRC issued the ―Order Imposing Increased Controls‖ to NRC licensees, including MML licensees,
authorized to possess radioactive material in quantities of concern. The radionuclides and associated
threshold quantities were based on the Category 1 and Category 2 quantities described in the
International Atomic Energy Agency Code of Conduct on the Safety and Security of Radioactive Sources.
The order requires licensees to implement enhanced security to control access to radioactive materials
quantities of concern and to protect sensitive security-related information. The order was issued to
applicable material licensees under the NRC’s public health and safety authority.
5
   Decommissioning is the process of safely closing a facility where nuclear materials are handled to retire
it from service after its useful life has ended. This process primarily involves decontaminating the facility
to reduce residual radioactivity and then releasing the property for unrestricted or (under certain
conditions) restricted use. This often includes dismantling the facility or dedicating it to other purposes.
6
   A ―medical event‖ occurs if one or more of several incidents occur such as the dose administered to a
patient differs from the prescribed dose by at least 20 percent, either too high or too low; or the wrong
radioactive drug is administered; and the difference between the dose administered and the prescribed
dose exceeds one of the reporting limits contained in 10 Code of Federal Regulations (CFR) 35.3045.

                                                      9
                                           Audit of NRC’s Oversight of Master Materials Licensees



               assistance go unanswered. For example, an MML licensee official
               explained that when the licensee asks a question, the need for information
               is immediate, but the responses are delayed or never provided. This
               official added this is a special cause for concern because NRC expects
               the licensee to enforce NRC regulations and ensure permittees comply
               with regulations.

               NRC does not have controls in place to ensure that the MML licensee staff
               receive an official answer from NRC. For example, a particular project
               manager may be an expert in licensing but unable to provide an answer to
               an MML licensee staff question about NRC decommissioning
               requirements. As such, the project manager is not able to immediately
               respond to the MML licensee staff question. An NRC staff member
               acknowledged that MML licensees often receive either a quick response
               to their questions or none at all. An MML official said that it is difficult to
               get information from NRC and that the biggest issue is getting NRC to
               answer questions that would help the MML licensee perform its regulatory
               role. For example, when NRC issued the increased controls order, it
               established an e-mail address to take questions. An MML official sent an
               e-mail with 12 questions, but NRC never answered the questions. In
               another example, NRC staff told MML licensee staff that the licensee
               could not use permittee-owned radiation survey equipment for inspections.
               MML licensee staff asked for an explanation and requested that the
               requirement be put in writing, but NRC did not provide an answer.

               While a few of the MML licensee requests may be answered formally
               through NRC’s Technical Assistance Request (TAR)7 process, MML
               licensee staff in all three regions expressed timeliness concerns with the
               TAR process. For example, MML licensee staff in one region made a
               request that was routed through the TAR process, and the licensee has
               been waiting well over a year for NRC’s response.

               MML licensee staff and NRC regional project managers also rely on the
               headquarters project manager for guidance and technical support.
               However, the level of support depends on the resources available and the



7
  A TAR response is a formal NRC document that NRC staff develop to address licensee requests for
clarification. NRC’s goal for completing a TAR response, which includes coordination throughout NRC, is
60 working days after the assigned branch has conducted an initial review.

                                                  10
                                            Audit of NRC’s Oversight of Master Materials Licensees



                individual who holds the position at any given time. For example, the
                current headquarters project manager has taken the initiative to set up
                meetings to discuss MML oversight and provide information to MML
                licensees. MML licensee staff members expressed appreciation for the
                current project manager’s initiative to forward Federal Register notices
                and updated NRC guidance affecting their license and for providing a
                headquarters perspective of MML licensee performance during biennial
                reviews. Regional project managers counted on the headquarters project
                manager to assist during two recent biennial reviews. However, due to
                resource constraints, the headquarters project manager was only able to
                attend part of one review and none of the other, which left the NRC team
                conducting the biennial without headquarters participation. NRC regional
                managers and staff supporting MML oversight have contended that
                headquarters support of MML oversight has waxed and waned over the
                past decade or more and that the previous headquarters project managers
                did little or nothing to coordinate MML oversight and support. Although
                the attention and initiative given by the current headquarters MML project
                manager is encouraging and helpful, there is nothing in place to ensure
                that such support will continue.

                MML Licensee Staff Have Difficulty Obtaining NRC Training

                MML licensee staff have experienced trouble getting into NRC-hosted
                training courses that they need to successfully implement their programs.
                NRC offers specialized technical training encompassing such topics as
                health physics, risk assessment, and regulatory skills for NRC, Agreement
                State,8 and MML licensee staff. However, MML licensee staff often do not
                learn of course offerings in time to register. An MML licensee staff
                member complained that MML licensee staff do not find out about course
                offerings when Agreement State officials are notified. An NRC Technical
                Training Center (TTC) staff member agreed that MML licensees are
                notified of available courses differently and might become aware of
                courses only after the course is full. When MML licensees are aware of
                course offerings, they have trouble registering. For example, one region
                has a three-step process for course registration while another allows MML
                licensee staff to register directly with TTC staff.
8
  An Agreement State is a U.S. State that has signed an agreement with NRC authorizing the State to
regulate certain uses of radioactive materials within the State. NRC relinquishes to such States portions
of its regulatory authority to license and regulate byproduct materials, source materials, and certain
quantities of special nuclear materials.

                                                    11
                         Audit of NRC’s Oversight of Master Materials Licensees



NRC Management Has Not Provided Adequate Guidance or a
Consistent Process for Supporting MML Licensee Staff

MML licensees do not receive all the support they need from NRC
because NRC guidance for regional and headquarters project managers is
inadequate. While NRC has inspection guidance, there is no agencywide
guidance on how MML project managers should support licensees by
providing guidance and technical assistance. Two regions have
developed region-specific guidance for project managers, but NRC does
not have agencywide guidance that would ensure consistent oversight of
MMLs by regional and headquarters project managers. Furthermore,
there is no guidance addressing the role and responsibilities of the
headquarters project manager.

MML licensee staff have difficulty obtaining NRC-hosted training because
there is no clear or consistent process for notification of, or registration for,
NRC-hosted training. The processes vary among the regions.

MML Licensee Staff May Lack Some Knowledge and Skills Required
To Fully Execute Regulatory Responsibilities

When MML licensee staff are required to wait months for NRC to respond
to requests for guidance or technical assistance, licensee staff might not
be able to fully execute their regulatory responsibilities. Additionally, as
long as NRC headquarters relies solely on the personal dedication of the
individual serving as the headquarters project manager without the benefit
of clearly defined roles and responsibilities, NRC risks losing knowledge
and awareness of MML-related activities as headquarters project
managers turn over. Also, when MML licensee staff do not obtain training
through NRC-hosted courses, they may violate the terms of the LOU and
not have the technical expertise to successfully execute their regulatory
responsibilities under the MML and adequately protect public health and
safety and the environment.




                                12
                      Audit of NRC’s Oversight of Master Materials Licensees




Recommendations

OIG recommends that the Executive Director for Operations:

   1. Define regional and headquarters MML project managers’ roles in
      responding to requests for guidance and assistance from MML
      licensee staff.

   2. Develop and implement a consistent and timely process for
      notifying MML licensee staff of NRC-hosted training courses.

   3. Develop and implement a consistent process for registering MML
      licensee staff for NRC-hosted training courses.




                            13
                                          Audit of NRC’s Oversight of Master Materials Licensees


       B.      Guidance on Selection of MML Permittees for Inspection Could Be
               Improved

               NRC selection of MML permittees for independent inspection varies. NRC
               monitors MML licensees’ performance primarily through independent
               inspections of MML permittees, and NRC principles regarding regulatory
               transparency and predictability should guide these monitoring actions.
               Regional variation in selecting MML permittees for inspection is a result of
               unclear and vague guidance. Without a clear definition of inspection
               parameters, MML permittee inspections are at risk of becoming a lower
               priority than deadline-driven activities, which could impair the
               effectiveness of monitoring MML licensee and permittee performance.

               Principles of Good Regulation Guide MML Oversight Activities

               The Commission established guiding principles to promote the
               transparency and predictability of NRC regulatory activities such as the
               independent inspections of MML permittees. The principle of openness
               states that nuclear regulation must be transacted candidly and requires
               open communication with licensees as well as Congress, other agencies,
               and the public. The principle of clarity states that regulation must be
               coherent, with a clear connection to NRC objectives, and readily
               understood. The principle of reliability states that regulatory actions
               should be consistent with written regulations and administered in a
               manner that will lend stability to operations and planning. As NRC
               monitors MML permittee performance, it should be apparent that the
               program is clearly communicated, connected to goals, and fairly
               administered.

               An example of guidance for NRC staff that serves these principles is
               Inspection Manual Chapter (IMC) 2800, ―Materials Inspection Program.‖9
               The primary objective of IMC 2800 is to establish a policy for the NRC
               materials inspection program that will achieve a consistent process of
               inspection for all licensees. A key way in which IMC 2800 establishes a
               consistent and reliable program is through the inclusion of specific
               intervals for routine inspections based on priority codes tied to the inherent
               risk of the licensed activity or material. For example, industrial

9
  NRC uses IMC 2800 to guide inspections of all materials licensees, but not for MML permittees. NRC
follows IMC 2810 for inspections of MML permittees. MML licensees follow IMC 2800 for MML licensee
inspections of their permittees.

                                                 14
                       Audit of NRC’s Oversight of Master Materials Licensees


radiography at a temporary jobsite is assigned priority code 1, and those
activities are inspected every year. Measuring systems with fixed gauges
are assigned priority code 5 and are inspected every 5 years.
Decommissioning activities are assigned priority code D, and NRC
conducts a special inspection as decommissioning activities occur.

Selection of MML Permittees for Independent Inspection Varies

Selection of MML permittees for independent inspections is shaped by
wide-ranging interpretations of the guidance for MML licensee oversight,
IMC 2810, ―Master Material License Inspection Program.‖ In contrast to
the consistent and reliable approach contained in IMC 2800, IMC 2810
directs NRC staff to select a ―sufficient number‖ and to choose a
―representative sample‖ of MML permittees in order to adequately monitor
MML licensee and permittee performance. NRC’s basis for selection of
MML permittees for inspection does not serve the NRC Principles of Good
Regulation such as clarity and reliability. The number of independent
inspections varies from year to year. In addition, NRC does not conduct
independent inspections of MML permittees located in foreign countries.

Guidance for NRC Independent Inspections of MML Permittees

IMC 2810 describes activities that MML project managers are required to
perform, including implementing a program of independent inspections of
MML permittees. To implement the independent inspection program, the
MML project manager is required to:

      Annually request a sufficient number of independent inspections to
      adequately monitor MML licensee and permittee regulatory
      performance.
      Choose a representative sample of the MML permittees to be
      inspected, placing less emphasis where permitted activities have
      less potential for health and safety problems.
      Avoid re-inspecting recently inspected permittees, unless a repeat
      inspection is warranted because of safety issues.

IMC 2810 is silent on whether and how MML project managers should
incorporate decommissioning inspections into their selection of MML
permittees for independent inspection.



                             15
                       Audit of NRC’s Oversight of Master Materials Licensees



Reasons for Selection Are Inconsistent

NRC management and staff refer to IMC 2810 when discussing selection
of permittees for inspection, yet they expressed a range of reasons for
selection that were inconsistent and sometimes conflicting. NRC staff
members stated there appears to be ―no rhyme or reason‖ underlying how
permittees are selected for independent inspection and ―it’s a shot in the
dark.‖ There is no single perspective on what constitutes ―a sufficient
number‖ of independent inspections or ―a representative sample‖ of the
MML permittees to be inspected. Management and staff articulated some
common themes, such as giving greater scrutiny to higher risk activities,
Increased Controls requirements, and MML permittee sites undergoing
decommissioning. However, there were also conflicting ideas. For
example, one NRC staff member stated that it is important not to overlap
with the MML licensee inspection staff, while other NRC staff pointed to
MML inspection findings as drivers for selecting MML permittees for
inspection. One regional project manager selected exactly 13 permittees
for inspections because the MML licensee identified violations at those 13
sites even though the project manager believed the violations were not
serious. A different NRC manager stated that 10 percent of the permittees
should be inspected, while another manager in the same region said there
is no set number.

Some inspection selections are made for reasons that are inconsistent
with the risks associated with the activity, materials, or permit
amendments. For example, a permittee may be selected for inspection
because of its geographic proximity to another permittee, solely to
conserve resources and not because of risk- or performance-based
criteria. Similarly, while some NRC managers said that the project
manager’s experience with the MML will contribute to judgments about
selection, other NRC staff said selection may be made to train not only a
new project manager, but possibly other staff as well, again not because
of risk-based criteria. At the same time, one area of risk may be
overlooked. Although amendments in permits can signal a potential
increase in risk, only one NRC manager mentioned permit amendment as
a consideration in selection.




                             16
                                                                 Audit of NRC’s Oversight of Master Materials Licensees



                                      Inconsistency in Inspections

                                      The number of permittees selected for inspection using this range of
                                      interpretations is inconsistent and varies from year to year as shown in
                                      Figure 2.

Figure 2: Independent Inspection Reports (2000-2010)

                               30

                               25
     # of Inspection Reports




                               20

                               15                                                                                 VA
                                                                                                                  Navy
                               10
                                                                                                                  Air Force
                                5

                                0
                                    2000   2001   2002   2003*   2004   2005   2006   2007   2008   2009   2010
                                                                        Year


* Note: The Veterans Affairs MML was not issued until March 17, 2003.
Source: OIG analysis of NRC documents.


                                      Figure 2 reflects the number of NRC independent inspection reports
                                      located in the Agencywide Documents Access and Management System
                                      (ADAMS)10 for each MML docket number for calendar years 2000 to 2010.
                                      The number of inspections performed annually for a given MML, as
                                      indicated by the inspection reports identified, varies from year to year.
                                      There is the least variation in the number of inspections of Air Force
                                      permittees; however, the Air Force program receives the fewest NRC
                                      inspections overall. For each MML licensee, there is 1 year in which no
                                      independent inspections were initiated: 2007 for Veterans Affairs, 2008 for




10
  ADAMS is the official recordkeeping system through which NRC provides access to libraries or collections of
documents related to the agency’s regulatory activities.

                                                                        17
                        Audit of NRC’s Oversight of Master Materials Licensees



Navy, and 2010 for Air Force. The variation does not elucidate how NRC
staff defines ―sufficient‖ or ―representative,‖ particularly when existing
practice occasionally produces zero annual independent inspections of
MML permittees.

MML Permittees Located at U.S. Military Bases in Foreign Countries

NRC does not inspect MML permittees in foreign countries although the
Navy and Air Force issue permits for overseas facilities or activities under
their MMLs.

Existing Guidance for NRC Staff Overseeing MMLs Is Not Clear

The variation in selection of permittees for independent inspections is the
result of unclear and vague guidance for MML project managers. IMC
2810 directs NRC staff to select ―a sufficient number‖ and ―a
representative sample‖ of permittees while avoiding duplicating the
inspections of the MML inspection staff. While the existing guidance is
intended to allow flexibility to develop a performance-based and risk-
informed inspection program, the guidance does not serve NRC’s
Principles of Good Regulation because it lacks clarity in key areas. NRC
staff mentioned areas in which greater direction would be helpful in setting
priorities and planning for inspections:

       A process to sample the various types of permittees within each
       MML licensee organization.
       A method to assess relative risk that incorporates performance
       history, changes to or termination of permits, newly permitted high-
       risk activities, as well as priority code.
       A minimum frequency for which the independent inspections should
       be planned.

Consistency and Effectiveness of Independent Inspections Are At
Risk

The differing approaches to selecting MML permittees for independent
inspections could limit the impact of NRC’s oversight. Without clearer
guidance for MML permittees selection and in the absence of quantitative
or timeliness goals, the inspections can become a lower priority than


                              18
                        Audit of NRC’s Oversight of Master Materials Licensees


deadline-driven activities, and management may have difficulty tracking
whether NRC’s oversight is commensurate with current MML licensee
activities. Moreover, MML licensee staff members expressed frustration
with the inconsistency because they perceive that NRC independent
inspections are neither connected to clear objectives nor administered in a
manner that lends stability to their own operations, as suggested by the
Principles of Good Regulation.

The varying approaches to selecting MML permittees for independent
inspections could also overlook areas of non-compliance within an MML
licensee program or omit inspecting activities with a significant impact on
public health, safety, and the environment. Also, if MML licensee
decommissioning activities increase, NRC would need to conduct more
decommissioning inspections that could divert further resources away
from NRC routine inspections of other MML permittees. The lessons-
learned task group report noted that NRC staff consensus is that if MML
licensee performance is ―acceptable,‖ then fewer inspections constitute
―sufficient.‖ If some permittees are inspected repeatedly while the overall
number of independent inspections declines, then the potential for risk
brought about by changes at other permittees may not be evaluated.
Because NRC does not inspect the MML permittees as often as the MML
licensee staff does, a deliberate selection process that enhances MML
oversight becomes more important.

Recommendation

OIG recommends that the Executive Director for Operations:

   4. Modify guidance to include a risk-informed methodology with
      requirements on sample size, selection criteria, and inspection
      frequency for selecting MML permittees for NRC independent
      inspection.




                              19
                                             Audit of NRC’s Oversight of Master Materials Licensees


        C.      NRC Should Clarify MML Licensee Regulatory Oversight Roles,
                Responsibilities, and Accountabilities

                NRC’s regulatory oversight expectations for MML licensees are not
                enforced. To ensure adequate protection of public health and safety and
                the environment, NRC expects MML licensees to perform regulatory
                oversight functions. However, these expectations are not clearly defined
                or explicitly enumerated in NRC regulations, the MMLs, the LOUs, or
                licensee ―tie downs.‖ As a result, MML licensees and NRC may have
                different understandings of MML licensee staff and the master radiation
                safety committee accountabilities and regulatory oversight roles and
                responsibilities. Consequently, MML licensees may not fully perform
                these regulatory oversight functions in a manner NRC expects, which
                could result in inadequate protection of public health, safety, and the
                environment.

                NRC Expects MML Licensees To Act As Regulators Similar To NRC

                NRC has regulatory oversight expectations for MML licensees. To ensure
                that MML licensees adequately protect public health and safety and the
                environment, NRC expects MML licensees to conduct regulatory oversight
                activities, such as identifying the ―extent of condition‖11 of events at MML
                permittee locations and communicating relevant information to permittees.
                NRC’s mission is to ensure adequate protection of public health and
                safety and the environment. NRC uses licensing, inspections, and
                enforcement, among other regulatory activities, to provide for this
                assurance. An MML licensee, under its MML, assumes some authority as
                a regulator, but remains a licensee. NRC managers and staff have
                varying views on the nature of MML licensees. While they all agree that
                an MML licensee is first and foremost a licensee, they also expect the
                MML licensees to perform regulatory functions. For example, NRC
                managers and staff expressed the view that MML licensees should
                embrace their role as a regulator, calling them ―quasi-licensees‖ and ―self
                regulating.‖




11
  ―Extent of condition‖ is a term used in NRC oversight of nuclear power plants. Under 10 CFR Part 50,
nuclear power plant licensees are required to have a quality assurance program that identifies significant
conditions adverse to quality, determines the cause of the condition, and takes corrective action to
preclude repetition of the condition.

                                                    20
                        Audit of NRC’s Oversight of Master Materials Licensees



NRC’s Expectations for MML Licensee Regulatory Oversight Are Not
Enforced

NRC does not enforce its regulatory oversight expectations of MML
licensees. NRC has never issued a finding or violation for an MML
licensee’s lack of adequate regulatory oversight during any of its biennial
reviews of the MML licensee’s implementation of the MMLs. Since about
2004, approximately every 2 years, NRC has conducted biennial reviews
to evaluate the effectiveness of MML licensees’ centralized control of
nuclear materials use. Inspection Procedure (IP) 87129, ―Master
Materials Program,‖ contains the guidance for these biennial inspections.
IP 87129 directs NRC staff to review several focus elements of the
program. One of these elements is management oversight. This review is
to verify whether the MML licensees have centralized control over their
nuclear materials use programs. For example, under management
oversight, IP 87129 requires NRC to determine if the MML licensee’s
master radiation safety committee is proactive in seeking out areas
needing improvement, rather than just responding to events and
information from outside sources. Another IP 87129 requirement is for
NRC to review and assess the MML licensee’s efforts to receive and
resolve technical questions from permittees and how generic safety and
health issues are addressed.

During a special inspection of the Veterans Affairs MML licensee to
determine the ―extent of condition‖ of problems related to prostate implant
brachytherapy, NRC identified several concerns regarding the MML
licensee’s regulatory oversight activities, but there were no violations as a
result of these concerns. For example, one concern NRC raised in its
report was that the MML licensee’s master radiation safety committee
meetings appeared to focus on ―one-way‖ communication from the MML
licensee staff to the committee, with no direction from the committee
members or discussion of safety issues among the committee members.
Also, NRC raised concerns about this MML licensee’s master radiation
safety committee not fulfilling its role in providing oversight and direction
for event response and not executing its authority in the enforcement
process under the MML. Additionally, NRC concluded that the MML
licensee did not have a formal process to address technical assistance




                              21
                                            Audit of NRC’s Oversight of Master Materials Licensees


                requests from MML permittees. Despite all of these concerns, NRC did
                not issue any violations related to regulatory oversight.12

                NRC’s Regulatory Oversight Expectations Are Not Enumerated in
                Licensing Documents or NRC Regulations

                NRC does not hold MML licensees accountable for all of the regulatory
                oversight functions that NRC expects the MML licensees to perform
                because some of those functions are not clearly defined or enumerated in
                NRC regulations, the MMLs, the LOUs, or the tie downs.

                NRC’s regulations governing materials licensees do not contemplate a
                licensee such as an MML licensee that is expected to perform regulatory
                oversight functions. Rather, NRC’s materials regulations are written with a
                licensee in mind that actually uses nuclear material, as opposed to an
                entity like the MML licensee staff organization that is issuing permits and
                conducting inspections but not actually using nuclear materials. An MML
                licensee official said that NRC inspectors raise concerns about MML
                licensee performance that have no regulatory basis. One NRC staff
                member explained that there are no regulations for the MML licensees’
                management oversight, and there is nothing for NRC to cite against.

                MMLs are not defined in NRC regulations or NRC’s governing legislation.
                None of the parts of the CFR that are applicable to materials licensees
                (specifically Parts 19, 20, 21, 30, 31, 32, 33, 34, 35, 36, 39, 40, 70, 71,
                and 110) contains a definition or description of MMLs, or any requirements
                for the performance of regulatory oversight duties by MML licensee staff or
                master radiation safety committee members. In contrast, there is a
                regulation describing broad scope licenses13 – to which MML licensees
                have been compared – and the role of the broad scope radiation safety
                committee in managing large broad scope licenses. Furthermore, the
                Atomic Energy Act, as amended, does not contain any definition of MMLs.
12
   In March 2010, NRC issued a notice of violation and imposition of a $227,500 civil penalty to the
Veterans Affairs MML licensee for violations of various NRC regulations. The most serious violations
were issued to the licensee for not having adequate procedures for prostate brachytherapy treatments to
ensure that the treatments were administered in accordance with the physician directive describing the
treatment as required in 10 CFR Part 35 (Medical Use of Byproduct Material). None of the violations
issued to the Veterans Affairs MML licensee related to regulatory oversight expectations that NRC
expects MML licensees to perform.
13
   While broad scope licensees are NRC licensees that are authorized to use nuclear materials at multiple
sites, broad scope licensees do not, for example, conduct inspections and issue violations according to
NRC regulations as MML licensees do.


                                                   22
                                          Audit of NRC’s Oversight of Master Materials Licensees


               In contrast, the act describes when NRC may enter into agreements with
               States to assume regulatory authority over certain nuclear materials. Such
               States are called Agreement States – another entity that has been likened
               to MML licensees.14

               Many of the regulatory oversight functions that NRC expects MML
               licensees to perform are not enumerated in the MMLs, the LOUs, or the tie
               downs. Without clear requirements in regulation, NRC’s only mechanism
               to clearly communicate its expectations in a manner that is enforceable is
               by enumerating those expectations in the MML, the LOU, and/or the tie
               downs. The MMLs, the LOUs, and the tie downs establish that the MML
               licensee is authorized to permit radioactive materials use at the particular
               Federal agency’s facilities. They also provide that the MML licensee shall
               conduct inspections and enforcement consistent with NRC’s inspection
               and enforcement guidance. However, these documents do not establish
               that the MML licensee or the master radiation safety committee is required
               to perform such regulatory oversight functions such as identifying the
               ―extent of condition‖ of events or incidents and taking corrective action to
               prevent recurrence. As one NRC staff member explained, identifying the
               ―extent of condition‖ of problems is a term borrowed from nuclear reactor
               oversight and is not regularly used in NRC oversight of materials
               licensees. This NRC staff member added that these requirements should
               have been clearly communicated when the MMLs, the LOUs, and the tie
               downs were established. Also, the MMLs, the LOUs, and the tie downs do
               not clearly establish the roles and responsibilities of the MML licensee and
               master radiation safety committee in answering and providing technical
               assistance to MML permittees.




14
  There are differences between MML licensees and Agreement States. Agreements States are not
NRC licensees, while MML licensees are. NRC relinquishes regulatory authority to Agreement States,
while MML licensees remain NRC licensees.

                                                 23
                                             Audit of NRC’s Oversight of Master Materials Licensees



                Without Clearly Enumerated Regulatory Oversight Requirements,
                Roles and Responsibilities May Be Confused

                Because NRC’s regulatory oversight expectations for MML licensees are
                not clearly defined or enumerated in licensing documents or NRC
                regulations, MML licensees and NRC may not have the same
                understanding of the MML licensees’ roles and responsibilities as they
                relate to oversight of the MML permittees. As one MML licensee official
                said, it is difficult for the MML licensee staff to know when they are the
                regulator policing MML permittees and when the MML licensee is a
                licensee accountable for the activities at a particular MML permittee. This
                official maintains that the MML licensee and the master radiation safety
                committee are not accountable for the activities that occur at a particular
                permittee location. This official added that the MML licensee staff and the
                master radiation safety committee are not the broad scope radiation safety
                officer15 for the permittees; rather, the MML licensee staff and the master
                radiation safety committee are the regulator. There is confusion as to the
                MML licensees’ role specifically when the MML licensee is a licensee, a
                regulator, or a radiation safety officer.

                This lack of clarity could lead to assumptions by NRC staff and MML
                licensee staff as to who has responsibility for oversight of the safe use of
                nuclear materials at MML permittees. As one NRC staff member said, the
                licensee might think it is doing the right thing but if NRC says it is not, this
                could lead to disagreement between NRC and the MML licensee as to the
                MML licensee’s responsibilities. NRC is unable to issue violations to MML
                licensees that are not meeting certain NRC regulatory oversight
                expectations, such as identifying the extent of condition of events or
                incidents at permittee locations or communicating certain information to
                permittees. As a result, these expectations may not be met by MML
                licensees, which could lead to inadequate protection of public health,
                safety, and the environment.




15
  A material licensee’s management appoints a radiation safety officer to be responsible for
implementing the radiation protection program. The licensee, through the radiation safety officer, is
responsible for ensuring that radiation safety activities are being performed in accordance with licensee-
approved procedures and regulatory requirements. Each MML permittee has a radiation safety officer.

                                                    24
                       Audit of NRC’s Oversight of Master Materials Licensees




Recommendation

OIG recommends that the Executive Director for Operations:

   5. Clearly define all MML licensee staff and master radiation safety
      committee regulatory oversight responsibilities (e.g., requirements
      and roles and accountabilities) in NRC regulations, the MMLs, the
      LOUs, or some combination thereof.




                             25
                                Audit of NRC’s Oversight of Master Materials Licensees


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

              1. Define regional and headquarters MML project managers’ roles in
                 responding to requests for guidance and assistance from MML
                 licensee staff.

              2. Develop and implement a consistent and timely process for
                 notifying MML licensee staff of NRC-hosted training courses.

              3. Develop and implement a consistent process for registering MML
                 licensee staff for NRC-hosted training courses.

              4. Modify guidance to include a risk-informed methodology with
                 requirements on sample size, selection criteria, and inspection
                 frequency for selecting MML permittees for NRC independent
                 inspection.

              5. Clearly define all MML licensee staff and master radiation safety
                 committee regulatory oversight responsibilities (e.g., requirements
                 and roles and accountabilities) in NRC regulations, the MMLs, the
                 LOUs, or some combination thereof.




                                      26
                               Audit of NRC’s Oversight of Master Materials Licensees



V.   AGENCY COMMENTS

        On April 19, 2011, OIG issued a discussion draft to the Executive Director
        for Operations. OIG subsequently met with NRC management during a
        May 2, 2011, exit conference during which agency management stated
        their general agreement with the findings and recommendations in this
        report. Agency staff provided informal comments to the draft report. Also,
        on May 5, 2011, OIG held an additional meeting with staff from the Office
        of the General Counsel to discuss the agency’s informal comments. On
        May 11, 2011, OIG provided the agency a revised discussion draft and on
        May 27, 2011, the agency declined to provide formal comments. The final
        report incorporates revisions made, as appropriate, as a result of meetings
        with NRC staff.




                                     27
                         Audit of NRC’s Oversight of Master Materials Licensees



                                                                     Appendix
SCOPE AND METHODOLOGY

   The audit objective was to determine whether NRC’s oversight of MML
   licensees adequately protects public health and safety and the
   environment. The audit focused on reviewing the oversight of the MMLs
   through documentation reviews, observation of NRC oversight activities,
   and interviews with NRC management and staff involved in MML oversight
   and with representatives of the MML licensees.

   OIG reviewed documents related to the Air Force, Navy, and Veterans
   Affairs MML licenses, including:

          The licenses.
          The Letters of Understanding, which lay out areas of separate
           and shared responsibility between the NRC and the licensee.
          Associated tie downs, which are licensee commitments to NRC
           which become part of the license.

   OIG also reviewed applicable sections of the CFR pertaining to materials
   licensees and NRC guidance relevant to MML oversight. Some of the key
   documents reviewed include:

          Atomic Energy Act of 1954, as amended.
          CFR Title 10.
          NUREG 1556, Volume 10, Program-Specific Guidance About
           Master Materials Licenses.
          NUREG 1556, Volume 20, Guidance About Administrative
           Licensing Procedures.
          NUREG 1757, Volume 1, Revision 2, Consolidated
           Decommissioning Guidance: Decommissioning Process for
           Materials Licensees.
          Final Report of NRC’s Department of Veterans Affairs Lessons-
           Learned Task Group.
          IMC 1246, Qualifications Program in Nuclear Safety and
           Safeguards Program.
          IMC 2800, Materials Inspection Program.
          IMC 2810, Master Materials License Inspection Program.
          IP 87129, Master Materials Program.

                               28
                       Audit of NRC’s Oversight of Master Materials Licensees



To determine the scope of NRC’s independent inspections of MML
permittees, OIG reviewed 220 NRC inspection reports from independent
inspections conducted between 2000 and 2010. OIG identified the
inspection reports through searches of ADAMS. OIG also accompanied
NRC inspectors on two independent inspections of MML permittees, one
at China Lake Naval Air Warfare Center, California, and the other at
Veterans Affairs San Diego Health Care System, California.

Additionally, OIG observed two biennial reviews of MML licensees
conducted by NRC teams during OIG’s fieldwork. One biennial review
was of the Veterans Affairs radiation safety program in Little Rock,
Arkansas, and the other was of the Navy radiation safety program in
Yorktown, Virginia, and Portsmouth, Virginia. OIG observed quarterly
meetings of the master radiation safety committees for the Air Force
(Rosslyn, Virginia), Navy (Arlington, Virginia), and Veterans Affairs
(Washington, DC). OIG reviewed reports of past biennial and annual
reviews of the MML licensees ranging from 1999 through 2009. These
reports were located in ADAMS.

The OIG audit team conducted interviews with managers and staff of NRC
and of the Air Force, Navy, and Veterans Affairs radiation safety
programs. Interviews with NRC staff and managers took place in the
regions that oversee the Master Materials Licenses—Region I (King of
Prussia, Pennsylvania), Region III (Lisle, Illinois), and Region IV
(Arlington, Texas). The audit team interviewed FSME managers and staff.
OIG interviewed representatives of all three MML licensees.

We conducted this performance audit at NRC headquarters and regional
offices from June 2010 through February 2011 in accordance with
generally accepted Government auditing standards. Those standards
require that the audit is planned and performed with the objective of
obtaining sufficient, appropriate evidence to provide a reasonable basis for
any findings and conclusions based on the stated audit objective. OIG
believes that the evidence obtained provides a reasonable basis for the
report findings and conclusions based on the audit objective. Internal
controls related to the audit objective were reviewed and analyzed.
Throughout the audit, auditors were aware of the possibility or existence of
fraud, waste, or misuse in the program. The audit work was conducted by
Sherri Miotla, Team Leader; Kevin Nietmann, Senior Technical Advisor;


                             29
                      Audit of NRC’s Oversight of Master Materials Licensees


Michael Zeitler, Audit Manager; Levar Cole, Senior Management Analyst;
Amy Hardin, Auditor; Dana Furstenau, Management Analyst; and Steven
Galeski, Management Analyst.




                            30
